October 8, 2020
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Polk County, Wisconsin v. J.K.J., et al., No. 20-427
Dear Mr. Harris:
We represent the respondents with respect to the above-referenced petition
for certiorari. A response is currently due on November 2, 2020. Respondents
respectfully request that the time to file a response be extended by 30 days, to and
including Wednesday, December 2, 2020. The extension is warranted because
counsel for the respondents have been occupied with time-sensitive appeals and
briefing in other matters. In addition, the ongoing COVID-19 pandemic and related
closures have caused additional burdens on counsels’ time unrelated to their legal
practice. An extension of 30 days will allow counsel for respondents to prepare a
comprehensive response that fully addresses the issues raised by Petitioner and will
aid the Court’s efficient resolution of this matter.
Respectfully submitted,
/s/ Steve Art

Counsel of Record for Respondents
Adam Francois Watkins
WATKINS BRADLEY LLP
228 Park Avenue South #14905
New York, NY 10003
(212) 937-4281

Thomas Weidner
Lida Bannink
ECKBERG LAMMERS
1809 Northwestern Ave.
Stillwater, MN 55082
(651) 439-2878

Steve Art
Sarah Grady
Megan Pierce
LOEVY & LOEVY
311 N. Aberdeen St.
Chicago, IL 60607
(312) 243-5900

cc: Erin E. Murphy & Lauren N. Beebe, KIRKLAND & ELLIS LLP; Paul D Cranley,
HUSCH BLACKWELL LLP; Andrew A Jones, HANSEN REYNOLDS LLC

